Semiannual
Report to Congress




                     April 2014
                                                                                            April 2014
                                                                                      October 1, 2013 - March 31, 2014




Contents

About DOI and OIG................................................................................................ii


Message From the 

Deputy Inspector General.....................................................................................iii


OIG Operating Principles.......................................................................................v


Summaries of Signiﬁcant Reports and Investigations........................................2


Appendices................................................................................................................27




         Editors                    Contributors                        Images                      Production

                                      Donald Cairns
                                       Joann Gauzza
   Kimberly Balderson                 Joel Guenther                       OIG
     Robert Gettlin                  Victoria Josupait                Shutterstock                Kimberly Balderson
                                       Mary Maruca
                                      Susan Parrott
About DOI and OIG
        The U.S. Department of the Interior (DOI) is a large, decentralized agency with
about 70,000 employees serving in approximately 2,400 operating locations across the United
States, Puerto Rico, U.S. territories, and freely associated states. DOI is responsible for 500
million acres of America’s public land, or about one-ﬁfth of the land in the United States,
and 56 million acres of Indian Trust lands. DOI is also responsible for a variety of water and
underwater resources, including hundreds of dams and reservoirs and thousands of oil and gas
leases on millions of acres of the Outer Continental Shelf. Approximately 30 percent of the
Nation’s energy production comes from projects on DOI-managed lands and offshore areas. DOI
scientists conduct a wide range of research on biology, geology, and water to provide land and
resource managers with critical information for sound decisionmaking. DOI lands also provide
outstanding recreational and cultural opportunities to numerous visitors worldwide.

        The Ofﬁce of Inspector General (OIG) promotes excellence, integrity, and
accountability in these DOI programs. With fewer than 280 full-time employees, the organization
is driven by a keen sense of mission and is dedicated to providing products and services that
impact DOI mission results.




                                               ii Back to Top
Message From the
Deputy Inspector General


                                                    Glacier National Park, Montana


       In this semiannual report, I am pleased to submit a summary highlighting the Ofﬁce of
Inspector General’s dedicated and successful work covering the 6-month period from
October 1, 2013, through March 31, 2014.

       In an effort to focus our attention on those matters in the Department that are of greatest
importance, several years ago, OIG developed Key Focus Areas and Investigative Priorities. We
developed these priority areas, in part, by reviewing the Department’s strategic plan, budget, and
top management challenges. The priority areas provide us with an unscientiﬁc way to ensure that
we dedicate our audit, inspection, evaluation, and investigative resources to considered areas of
import to the Department.

       The Key Focus Areas for audit, inspection, and evaluation are:

          Energy;

          Water;

          Climate Change; 

          DOI Business Processes and Operations; 

          Indian and Insular Affairs; 

          Health, Safety, Security, and Maintenance; and 

          Asset Protection and Preservation.


       The areas of Investigative Priority are:


          Contract and Grant Fraud; 

          Energy; 

          Scientiﬁc Misconduct; 

          Ethical Violations (Public Corruption, PAS/SES Misconduct, Standards of Conduct);

          Public Safety and Security; and 

          Workers Compensation Fraud. 


                                                   iii
        The summaries of our work for this semiannual reporting period reﬂect these areas of
attention in a way that has become quite routine for us. There is nothing magical about these
focus areas, but they do lend a certain discipline when we consider how to deploy our resources
and to ensure our stakeholders that we are being the best stewards possible in providing oversight
for the programs and operations of the U.S. Department of the Interior.




                                                Deputy Inspector General




                                                iv Back to Top
OIG Operating Principles

Mission
OIG’s mission is to provide independent oversight and promote excellence, integrity, and
accountability within the programs, operations, and management of the U.S. Department of the
Interior.

Values
OIG operates as an independent oversight organization responsible to the American people,
DOI, and Congress. We abide by the highest ethical standards and have the courage to tell our
customers and stakeholders what they need to know, not what they wish to hear. Our core values
help us fulﬁll our mission and include—

        placing highest value on objectivity and independence to ensure integrity in our
          workforce and products;
        striving for continuous improvement; and
        believing in the limitless potential of our employees.

Responsibilities
OIG is responsible for independently and objectively identifying risks and vulnerabilities that
directly impact DOI’s ability to accomplish its mission. We are required to keep the Secretary
and Congress informed of problems and deﬁciencies relating to the administration of DOI
programs and operations. As a result of OIG fulﬁlling these responsibilities, Americans can
expect greater accountability and integrity in Government program administration.

Activities
OIG accomplishes its mission by conducting audits, inspections, evaluations, and investigations
relating to DOI programs and operations. Our activities are tied to major departmental
responsibilities and assist DOI in developing solutions for its most serious management and
program challenges. These activities are designed to ensure that we prioritize critical issues. Such
prioritizing provides opportunities to inﬂuence key decisionmakers and increases the likelihood
that we will achieve desired outcomes and results that beneﬁt the public.




                                                 v Back to Top
Summaries of
Signiﬁcant Reports
and Investigations
Audits, Inspections, and Evaluations

BIA Exceeded GSA Requirements by More Than $32.7 Million in Real
Property Lease Agreements
We conducted an inspection to determine whether the Bureau of Indian Affairs (BIA) followed
applicable policies and guidelines for property leased under the U.S. General Services
Administration’s (GSA) “Can’t Beat GSA Leasing” program. We found that BIA had not
followed GSA’s leasing requirements and that BIA had approved more than $32.7 million in
lease agreements that exceeded GSA square footage and purchase approval limits. Our review
of 14 BIA leases uncovered numerous issues ranging from noncompliance with GSA guidelines
to insufﬁcient BIA guidance and inadequate training.

GSA’s “Can’t Beat GSA Leasing” program allows Federal agencies to lease property on their
own using delegated authority from GSA rather than use GSA to help with their property
needs. This program enables agencies like BIA to lease ofﬁce buildings and other real property
without GSA input as long as the agency meets GSA guidelines. In a recent review, GSA found
discrepancies with BIA’s leasing program and referred the issue to us.

The problem emerged when BIA failed to meet guidelines established by GSA’s Federal
Management Regulation Bulletin 2008-B1, which states that—

        no agency can lease any property greater than 19,999 square feet;
        agencies must provide information supporting a request as well as an explanation of
          how the agency will lease either at or below GSA costs; and
        agency leasing personnel must use a warranted realty contracting ofﬁcer.

During our inspection of the 14 BIA leases identiﬁed by GSA, we found leases that BIA
extended without GSA approval, leases that exceeded GSA square footage limits, leases
established by BIA employees without the qualiﬁcations to do so, and contracting ofﬁcers who
did not follow guidelines. In addition, BIA’s failure to accurately report all lease data back to
GSA made it impossible for GSA to analyze post-lease performance data for the BIA leases
that we reviewed.

We made three recommendations to BIA to improve oversight of its leases and leasing process.
We recommended that BIA develop and implement policies and procedures that ensure
compliance with GSA guidance, develop a database to accurately reﬂect the status of leases in
BIA’s inventory, and ensure that BIA contracting ofﬁcers receive appropriate training in lease
administration and management.




                                                 2

Deﬁciencies Identiﬁed in BIA’s Records Management Practices
We inspected the records management practices at three Bureau of Indian Affairs (BIA)
agencies after discovering deﬁciencies with records management during an unrelated
evaluation regarding the application for permit to drill process for oil and gas wells. Overall,
we identiﬁed instances of incomplete, inconsistent, and incorrect record ﬁling systems at two
of the three BIA agencies visited.

Royalty payments for oil and gas produced from Indian lands are held in trust, invested, and
disbursed by BIA at the direction of the applicable tribe or individual mineral owner. BIA
agencies must maintain an accurate system of property records showing the location and owner
of each oil and gas lease, individual well data, and rights-of-way to ensure that royalties are
correctly paid.

We visited the Southern Ute Agency in Ignacio, CO; the Fort Berthold Agency in New Town,
ND; and the Uintah and Ouray Agency in Fort Duchesne, UT. At the Southern Ute and Fort
Berthold agencies, we found several deﬁciencies in records management practices for oil and gas
documents and ﬁles, including—

        inconsistent ﬁling of real estate and general records;
        incorrect recording of new property records;
        uncontrolled or unrestricted access to property records;
        incomplete and outdated rights-of-way ﬁles;
        unrecorded oil well surface structures in BIA’s Trust Asset and Accounting
          Management System;
        incomplete or not uniformly ﬁled well ﬁles;
        ﬁle boxes stacked haphazardly and not labeled with appropriate identiﬁcation; and
        unlocked ﬁle cabinets.

We did not identify any records management issues at the Uintah & Ouray Agency.

We made three recommendations to BIA, to include expanding the scope of records management
reviews to include all property records maintained at BIA agencies and for the Southern Ute and
Fort Berthold agencies to correct the identiﬁed deﬁciencies and comply with management plans
for safeguarding trust records. BIA concurred with all three recommendations.

OIG Suggests Additional Focus on Underground Injection Wells
After completing the survey phase of our evaluation into Class II underground injection control
wells on DOI lands, we determined that further review of these wells was not warranted. While
we did not issue a formal report with recommendations, we did identify three issues that merited
DOI’s attention.
                                                 3

Class II underground injection control wells are injection wells associated with oil and gas
production, disposal of ﬂuids associated with oil and gas production, and hydrocarbon storage,
but do not include hydraulic fracturing unless diesel fuel is used. We determined that the Bureau
of Land Management (BLM), the U.S. Fish and Wildlife Service (FWS), and the National Park
Service (NPS) have Class II wells operating on lands they manage.

These wells operate under a variety of oversight methods, including memorandums of
understanding between departmental bureaus and the States. During the survey phase of our
evaluation, we reviewed the 2012 memorandum of understanding between the California
Department of Conservation, Division of Oil, Gas, and Geothermal Resources and BLM’s
California State Ofﬁce. We found the 2012 memorandum included signiﬁcantly less detail than
the memorandum issued in 2008. The 2012 document merely identiﬁed goals and instructed
parties to “begin to develop speciﬁc plans” to implement these goals, while the 2008 document
clearly deﬁned responsibilities for each party. We suggested that the BLM California State Ofﬁce
and other departmental agencies pursue memorandums of understanding that have clear and
enforceable responsibilities and that allow for streamlining processes.

In addition, when we visited an oil ﬁeld managed by the BLM California State Ofﬁce that
contained Class II wells, we found that BLM misclassiﬁed several Class II wells in its database.
We suggested that BLM conﬁrm that these wells are correctly classiﬁed to ensure prompt
collection of royalties and correct inclusion in annual inspections.

Lastly, when we visited the Deep Fork Wildlife Refuge in Okmulgee, OK, we found oil and gas
equipment that had been left on the land by oil and gas operations prior to the refuge’s creation.
This equipment, which included pump jacks, pipelines, and tank batteries, poses signiﬁcant and
immediate health and environmental risks. We suggested that FWS seek remedies for cleanup of
these sites, and we have initiated a separate review of orphaned and abandoned oil and gas wells
on wildlife refuges.

We encourage BLM, FWS, and NPS to review their policies and procedures regarding Class II
underground injection wells and hope that additional focus on the identiﬁed issues will result in
better management of our natural resources.

DOI Does Not Comply With Regulations Regarding Management of
Class V Wells
We evaluated DOI’s underground injection control activities to determine DOI’s effectiveness in
managing the U.S. Environmental Protection Agency’s (EPA) six classes of underground
injection control wells. We narrowed the scope of our review to focus mainly on Class V wells
because of their ubiquity and possible impact on groundwater. We found that these wells may be
putting underground sources of drinking water at risk.



                                                4

The U.S. Geological Survey estimated in 2013 that more than 100 million people in the United
States, about 35 percent of the population, received their drinking water from public groundwater
systems. Class V wells inject nonhazardous ﬂuids into or above underground sources of drinking
water; these wells depend on gravity to drain the ﬂuids into the ground and include such things
as cesspools and drainage for storm water.

EPA estimates that there are 650,000 of these wells operating throughout the country on both
public and private lands and considers these wells a major threat to groundwater quality due to
their prevalence and lack of proper operation and maintenance.

We identiﬁed four issues with Class V injection wells managed on DOI lands. First, we found no
speciﬁc departmental guidance to assist DOI and its bureaus in complying with EPA’s Class V
regulations, which has led to a patchwork of inconsistent or nonexistent policies at the bureau
level.

Second, we found that DOI did not know the scope of EPA’s deﬁnition of Class V wells, making
it impossible for DOI to properly track, maintain, or identify all of the wells operating on public
land. We received only a partial listing of these wells from the Bureau of Land Management, the
National Park Service, the U.S. Fish and Wildlife Service, and the Bureau of Reclamation; the
Bureau of Indian Affairs did not provide a listing.

Third, we found that since these bureaus do not maintain an accurate listing of Class V wells,
they were unable to comply with EPA’s regulations to self-report their inventory of wells to EPA.
Federal regulations require each owner or operator of Class V wells to provide an inventory
report that contains the facility name and location, name and address of a legal contact,
ownership of the facility, nature and type of injection wells, and operating status of the injection
wells.

Lastly, we found several instances where banned wells were still operational on DOI lands.
Because of their potential to pollute underground sources of drinking water, EPA banned large-
capacity cesspools and motor vehicle waste disposal drains in 2000; owners and operators of
these types of wells had until 2005 to permanently close large-capacity cesspools and until 2008
to close or obtain a permit for motor vehicle waste disposal wells.

While we could not determine the exact number of banned wells still in operation because the
bureaus could not provide a comprehensive list of Class V wells, we identiﬁed at least 151
banned wells that are still in operation.

We offered seven recommendations to DOI and its bureaus focused on developing and
implementing policies and procedures to comply with EPA’s regulations and provide education
on the rules concerning Class V wells; identifying Class V wells and developing systems to track
these wells; and closing all banned wells. We believe that, if implemented, these
recommendations will help DOI and its bureaus comply with EPA’s regulations and help
safeguard underground sources of drinking water.
                                                 5

BLM Cannot Ensure it Obtains Market Value for Mineral Materials
We audited the Bureau of Land Management’s (BLM) mineral materials program to determine
whether BLM obtained market value for mineral materials. We could not conclude that the
Federal Government receives the full value of revenues from this program.

BLM sells mineral materials under the authority of the Materials Act of 1947, as amended. These
materials consist of common types of sand and gravel, stone, pumice, or other materials used
primarily in construction and landscaping, and are mainly sold using competitive or
noncompetitive contracts. In ﬁscal year 2011, sales were valued at approximately $17 million;
we visited eight ﬁeld ofﬁces in four States whose ﬁscal year 2011 sales totaled more than $14
million. We found little assurance that BLM obtained market value for mineral sales, recovered
the processing cost for mineral contracts, veriﬁed sales production, or resolved issues of
unauthorized mineral use.




Example of mineral materials sold by BLM through the mineral materials program




                                                            6

Speciﬁcally, we identiﬁed four causes that contribute to the potential loss of revenue. First, we
found that BLM has little assurance it obtained market value for mineral material sales. Outdated
guidance and conﬂicting regulations make it difﬁcult for BLM to determine fair market value. In
addition, an independent review of appraisals conducted to determine the value of the materials
rendered the appraisals disapproved for use because of several deﬁciencies, including inadequate
content, detail, or analysis required to comply with professional appraisal standards. We also
identiﬁed 16 contracts that should have included price adjustments for the value of materials that
have not yet been removed and found that BLM lost more than $846,000 in potential revenues.
Second, we found that BLM made little effort to recover processing costs related to exclusive
mineral sales and subsequent contract renewals. The authority to recover costs not only includes
the costs to obtain an appraisal, but also staff labor costs incurred when assessing market
conditions and establishing and renewing contracts. We found that despite this authority, none of
the 30 exclusive-sales contracts we reviewed had associated cost recovery. Further, only two of
the eight competitive contracts reviewed had some form of cost recovery. We could not develop
an estimate of the total costs unrecovered due to incomplete data.

Third, we determined that BLM does not consistently verify the volume of mineral materials
removed. BLM policy requires geologists to conﬁrm mineral production by inspecting sites and
verifying reported volumes. Production veriﬁcation ensures accountability by independently
monitoring and verifying reported production and payments. We identiﬁed 33 of 38 contract
ﬁles that did not have any production veriﬁcation documentation. Without this veriﬁcation, BLM
cannot ensure that contractors are removing only the quantities of mineral materials contracted
for and that the Government is receiving proper compensation.

Lastly, we found that BLM may be losing revenues due to unauthorized use. BLM did not collect
fees for mineral materials used on lands it sold to a private developer and informally valued the
unpaid fees for these materials at more than $1 million. We are concerned that similar instances
of unauthorized use could be occurring on other properties sold and that the Federal Government
is potentially losing millions of dollars in revenues.

We offered 15 recommendations focused on updating and changing outdated or conﬂicting
regulations, ensuring that BLM recovers contract-processing costs, verifying the volume of
mineral materials removed from Federal lands, and limiting opportunities of unauthorized
removal of mineral materials that, if implemented, should enhance BLM’s management of the
mineral materials program. BLM agreed with 14 of our 15 recommendations.




                                                7

Inspection Reveals Potential Problems With the Ofﬁce of the Solicitor’s
Equipment Accountability
We completed an inspection to determine whether DOI’s Ofﬁce of the Solicitor (SOL)
could account for all of the Dell thin client computers it purchased to facilitate Cloud-based
computing for its employees. Overall, we identiﬁed several issues that could result in waste and
mismanagement of the computers purchased.

Thin client computers are designed for Cloud-based interface. All data is stored in an external
server, and the computers allow users to access shared data through a special network. Software
is loaded onto the computers, but they have no capacity for data storage. These computers are
signiﬁcantly cheaper to purchase per unit than traditional desktops or laptops, but require more
space on the storage-area network. Between 2009 and 2011, SOL purchased 140 thin client
computers, at a cost of $51,363, to distribute to its staff.

We found that SOL could not locate 11 of the 140 computers and had issued only 8 computers to
its staff. SOL has stored the remaining computers in a storage room in the Main Interior Building
since they were purchased. In addition, SOL has not performed a complete physical inventory
of the computers and did not attach inventory identiﬁcation tags to them until 2 years after the
purchase. Finally, we found that information about the computers on SOL’s inventory list was
incomplete and inaccurate and that SOL is not following departmental procedures for equipment
management and acquisition.

We made four recommendations to improve SOL’s equipment accountability. We recommended
that SOL fully inventory the thin client computers, follow DOI procedures for equipment
management and acquisition, appropriately record the loss of the missing computers, and decide
whether to issue the remaining computers or to designate them as excess equipment.

Administrative Costs Associated With UMWAF Appear Reasonable
We inspected the United Mine Workers of America Health and Retirement Funds (UMWAF)
to review concerns expressed by the Ofﬁce of Surface Mining Reclamation and Enforcement
(OSM) about increasing administrative costs associated with the funds. OSM also expressed
concerns about its authority to provide programmatic oversight of the trusts related to UMWAF
to ensure that funds are spent appropriately. Our inspection found that the administrative costs
appear reasonable.

As of ﬁscal year 2012, UMWAF provided healthcare to 31,871 retired union coal-mine workers
and their dependents for a total cost of $392,263,098. Three primary trusts provide coverage
for health beneﬁts: the Combined Beneﬁt Fund, the 1992 Beneﬁt Plan, and the 1993 Beneﬁt
Plan. UMWAF and OSM operate under a memorandum of understanding that outlines the
responsibilities of both parties under the Surface Mining Control and Reclamation Act.


                                                8

The Act created the Abandoned Mine Lands (AML) fund, managed by OSM, to pay for the
cleanup of mine lands and requires that interest from the AML fund be transferred to the three
trusts to support healthcare beneﬁts. At the beginning of each ﬁscal year, UMWAF submits a
funding request that details projected costs to OSM. OSM then transfers interest earned from
the AML fund to support UMWAF, and adjustments are made at the end of the year based on
actual expenditures. In the event that interest generated does not cover expenses, the three trusts
are entitled to payments from the U.S. Treasury, subject to a $490 million cap on all combined
annual transfers from the Treasury and the AML fund.

Despite OSM’s concern of increasing administrative costs associated with UMWAF, our
inspection found that these administrative costs are at or below the 12 percent observed in private
industry. Based on the data we reviewed, we concluded that the administrative costs appear
reasonable.

We also found that the Act does not expressly require OSM to oversee management of UMWAF,
including how the administrative costs are spent. The law only requires OSM to make payments
to the three health trusts. The current memorandum of understanding between OSM and
UMWAF, however, provides OSM some monitoring rights and allows OSM to receive and
review audited annual ﬁnancial statements and monthly unaudited statements, both provided by
UMWAF.

Although the funding of UMWAF falls under the auspices of OSM, it has no direct programmatic
oversight to ensure that money transferred from the AML fund is used for the intended purpose.
We recommended that OSM negotiate more speciﬁc provisions for programmatic oversight when
the current memorandum of understanding expires at the end of ﬁscal year 2014, or seek to adopt
regulations under the Act that provide for additional oversight authority.

OIG Disagrees That Certain CIAP Projects Provided Coastal Beneﬁt
In our October 2013 Semiannual Report to Congress, we reported the ﬁndings of our audit of
the management of Coastal Impact Assistance Program (CIAP) grants awarded to the State of
Mississippi. During the audit, we identiﬁed certain CIAP grants that did not meet requirements
set forth by the Energy Policy Act of 2005.




                                                 9

The Act required grant recipients to use all grant funds for at least one of ﬁve authorized uses:

        Projects and activities for the conservation, protection, or restoration of coastal areas,
          including wetland (AU1);
        Mitigation of damage to ﬁsh, wildlife, or natural resources (AU2);
        Planning assistance and the administrative costs of complying with CIAP
          requirements (AU3);
        Implementation of a federally approved marine, coastal, or comprehensive
          conservation plan (AU4); and
        Mitigation of the impact of Outer Continental Shelf activities through funding of
          onshore infrastructure projects and public service needs (AU5).

We found, however, that seven different grant projects should not have been approved because
these projects had little or no relevance to the preservation of the coastal areas. Examples of
these projects include the Ohr-O’Keefe Museum of Art, which received funding under AU1 to
install six skylights and construct a living laboratory, where less than 4 percent of CIAP funds
were used for conservation purposes; the Old Wire Road Trail, which received funding under
AU1 for an asphalt trail with interpretive signs in a landlocked county, where only about 2
percent of the grant was budgeted for conservation purposes; and the Inﬁnity Science Center,
which received funding under AU1 to construct a general-purpose classroom at a NASA facility.

As a result, we questioned almost $5.9 million in ineligible costs and funds to be put to better use
and recommended that DOI’s Assistant Secretary for Policy, Management and Budget (PMB)
resolve the costs. The U.S. Fish and Wildlife Service (FWS), which manages CIAP, did not
concur with this recommendation.

FWS acknowledged that not all aspects of the projects we identiﬁed directly beneﬁtted
coastal resources, but it noted that each project contained components that clearly fulﬁlled
the requirements of the authorized uses. FWS also stated that the completion of these projects
provided a greater overall good than is quantiﬁed in the individual awards, which in many
cases funded only a small portion of a larger construction project intended to beneﬁt the public.
Therefore, FWS stated that each of these projects met the authorized use for which grant money
was awarded.

In January 2014, PMB’s Ofﬁce of Financial Management reviewed documentation provided by
FWS to close this recommendation and agreed with FWS that the seven projects we questioned
did support one of the ﬁve authorized uses and provide either direct or indirect beneﬁts to the
natural coastal environment.



                                                 10

We disagree with the position of both FWS and PMB. While these projects may provide a public
good and may deserve public funding, we do not believe there is sufﬁcient justiﬁcation for CIAP
to provide that funding. We acknowledge that certain aspects of these projects do appear to meet
the requirements under AU1, such as the planting of native vegetation or coastal conservation,
but these aspects often represent a minor portion of the overall funding. The fact that a small
portion of a project may serve for the conservation, protection, or restoration of coastal areas
does not justify substantial additional funding that falls outside of those parameters, causing us
to question whether any of these projects that we initially determined to provide little or no direct
beneﬁt to the natural coastal environment were designed or completed in the spirit of the Act.




The Gulf of Mexico from a beach near Biloxi, MS




                                                  11

Ofﬁce of Investigations
Big Sandy Oil Company Settled Allegations Related to the False Claims
Act
In conjunction with the Bureau of Land Management’s Special Investigations Group, we
determined that Big Sandy Oil Company, an oil and gas operator based in Franklin, PA, only
sporadically paid royalties from 1990 through 2005 and failed to pay any royalties from 2005
through 2013 for oil produced from two parcels of land in the Allegheny National Forest in
Warren County, PA.

Big Sandy Oil Company agreed to pay the United States $73,606.75 to settle allegations that it
violated the False Claims Act by knowingly failing to pay oil royalties it owed to the Federal
Government. The settlement was fully executed on January 2, 2014.

Contractors Guilty of Defrauding Oil Lease Investors
OIG and the FBI conducted a joint investigation into allegations that Mike Alfons Campa, owner
of Domestic Energy Solutions, engaged in a fraudulent oil lease investment scheme on the Fort
Peck Indian Reservation. The Bureau of Indian Affairs provided us with a copy of a March 7,
2011 letter from Campa, acting under the alias Mike Heretel, to an investor in which Campa
purported that a $4,000 investment entitled the investor to a 0.5 percent ownership in Domestic
Energy Solutions and all income generated from three speciﬁc oil leases on the Reservation. Fort
Peck Agency personnel conﬁrmed that Campa did not own the oil leases referenced in the letter.

Our investigation determined that Campa and ﬁve others—Suzette Gulyas Gal, Andras Zoltan
Gal, Steven William Carpenter, Krisztian Zoltan George Gal, and Dana Yvonne Kent—solicited
approximately $675,406 from investors in connection with their fraudulent oil and gas leases on
the Fort Peck Indian Reservation. On September 5, 2012, a Federal Grand Jury in the U.S.
District Court for the District of Montana indicted the six individuals, charging each defendant
with one count of conspiracy, one count of mail fraud, and one count of wire fraud.

Kent pleaded guilty on January 2, 2013, to one count of wire fraud. On April 2, 2013, she was
sentenced to 18 months in Federal prison and 1 year of supervised release and ordered to pay
$101,490 in restitution jointly and severally.

On April 22, 2013, Mike Campa pleaded guilty to all three counts of the indictment. On January
30, 2014, Campa was sentenced to 30 years in Federal prison, followed by 3 years of supervised
release, and ordered to pay $5,175,406.62 in restitution jointly and severally with the other
defendants in this case. The restitution amount was determined based on two frauds that Campa
had perpetrated concurrently.


                                               12

In the oil-lease scam we investigated, he took $675,406 from investors. During our investigation,
we also uncovered a second fraud in which Campa had taken $4.5 million from an investor for a
phony gold mine in Arizona. Campa was also sentenced to 6 months in Federal prison for
contempt of court, which will be served concurrently with his 30-year sentence. On January 30,
2014, Campa ﬁled his notice of appeal to the ninth circuit.

On May 1, 2013, a jury found Suzette Gulyas Gal, Andras Zoltan Gal, and Carpenter guilty of all
three counts in the indictment. The jury found Krisztian Zoltan George Gal guilty of conspiracy
but acquitted him of the mail and wire fraud charges.

On August 26, 2013, Suzette Gulyas Gal was sentenced to 10 years in Federal prison and 3 years
of supervised release and ordered to pay $675,406 in restitution jointly and severally with the
other defendants. She was also ordered to pay $4.5 million in restitution jointly and severally
with Campa and Krisztian Zoltan George Gal.

Also on August 26, 2013, Carpenter was sentenced to 15 years and 8 months in Federal prison
and 3 years of supervised release and ordered to pay $675,406 in restitution jointly and severally
with the other defendants. On August 30, 2013, Andras Zoltan Gal was sentenced to 6 years in
Federal prison and 2 years of supervised release and ordered to pay $675,406 in restitution
jointly and severally with the other defendants. Carpenter and Andras Zoltan Gal both ﬁled
notices of appeal to the ninth circuit on August 30, 2013, and September 9, 2013, respectively.

On December 20, 2013, Krisztian Zoltan George Gal was sentenced to 5 years in Federal prison
and 2 years of supervised release and ordered to pay $675,406 in restitution jointly and severally
with the other defendants. Krisztian Zoltan George Gal also ﬁled a notice of appeal to the ninth
circuit on December 23, 2013.

Drilling Company Sentenced for Making and Delivering False Writings
We investigated Stone Energy Corporation (SEC) and Helmerich and Payne International
Drilling Company (H&P) for falsifying blowout preventer tests. SEC operated a Federal lease,
which authorized the company to produce minerals from the Outer Continental Shelf, and SEC
contracted H&P to drill multiple oil wells within the Gulf of Mexico. Federal regulations
required SEC and H&P to maintain well control at all times. In order to meet this mandate, the
companies were speciﬁcally required to pressure test the blowout preventer system.

Our investigation determined that on at least six occasions between February 14, 2010, and May
8, 2010, H&P knowingly falsiﬁed blowout preventer system test results. On November 8, 2013,
the U.S. District Court for the Eastern District of Louisiana sentenced H&P to 3 years of
probation and ordered it to pay a $6.4 million ﬁne and a $125 assessment based on a plea
agreement in which the company agreed to plead guilty to one count of knowingly making and
delivering false writings.


                                                13

Deepwater Horizon Task Force
As we have done for the past 4 years, we continue to provide resources to the Deepwater
Horizon Task Force that was formed to investigate the worst environmental catastrophe in United
States history. On the evening of April 20, 2010, the Deepwater Horizon offshore drilling rig
exploded off the coast of Louisiana, killing 11 men. Shortly thereafter, the U.S. Department of
Justice (DOJ) formed the task force, consisting of various law enforcement agencies, to
investigate the disaster. DOJ asked us to join the task force because of our unique expertise in oil
and gas exploration issues. During the peak of the investigation, we assigned 10 special agents, 2
auditors, and 2 computer forensic specialists to the task force.

As a result of the task force’s investigation, three companies—BP, Transocean, and
Halliburton—have pleaded guilty and paid almost $4.5 billion in ﬁnes, penalties, and
contributions. In November 2012, BP agreed to plead guilty to 11 counts of manslaughter, 1
count of obstruction of Congress, and 2 other charges. They also agreed to pay $1.26 billion in
criminal ﬁnes and another $2.74 billion in penalties. Two months later, Transocean, the drilling
contractor that owned the Deepwater Horizon, pleaded guilty to one criminal charge and agreed
to pay $400 million in criminal ﬁnes and penalties. Lastly, in September 2013, Halliburton,
which provided contract cementing services to BP, pleaded guilty to a charge concerning the
destruction of evidence and paid the maximum statutory ﬁne of $200,000. Halliburton also made
a voluntary and unconditional contribution of $55 million to the National Fish and Wildlife
Foundation.




Cleanup efforts in the Gulf of Mexico following the Deepwater Horizon explosion and oil spill



                                                             14

Five individuals have also been charged in this case. On December 18, 2013, a jury in New
Orleans, LA, convicted Kurt Mix, a former BP engineer, of intentionally destroying evidence
related to the oil spill. In January 2014, Anthony Badalamenti, a former Halliburton manager,
was sentenced to 1 year of probation after pleading guilty to destroying evidence related to the
case. Obstruction and false statements charges are pending against former BP executive David
Rainey, and manslaughter and other charges remain against former BP wellsite leaders Donald
Vidrine and Robert Kaluza.

We will continue to provide resources to the task force until all of the pending cases have been
adjudicated.

Mississippi State Employees Indicted for Theft of Federal Funds
Subsequent to our audit of Coastal Impact Assistance Program funds awarded to the State of
Mississippi, OIG and the FBI initiated a joint investigation to determine if issues found during
the audit violated Federal law.

We found that Mississippi Department of Marine Resources (DMR) employees, including DMR
Executive Director William Walker; Chief of Staff Joseph Zeigler; Coastal Management and
Planning Director Sheila “Tina” Shumate; and Walker’s son, Scott, conspired to deposit Federal
funds into the bank account of the Mississippi Marine Resources Foundation—a private,
nonproﬁt corporation created by William Walker—and then used those funds for personal gains,
such as real estate transactions.

On November 5, 2013, a Southern District of Mississippi Grand Jury indicted William Walker,
Scott Walker, and Shumate on one count of theft concerning programs receiving Federal funds
and one count of conspiracy to commit such theft. William Walker, Scott Walker, and Zeigler
were also indicted on multiple counts of mail fraud and conspiracy to commit mail fraud.
On February 20, 2014, Scott Walker pleaded guilty to one count of theft and one count of
conspiracy. William Walker pleaded guilty on March 10, 2014, to one count of conspiracy.
Sentencing dates will be scheduled.

BIA Fireﬁghters Indicted for Theft of Federal Funds, False Statements
We investigated several Bureau of Indian Affairs (BIA) wildland ﬁreﬁghters at Pine Ridge
Agency (PRA) in Pine Ridge, SD, for working unnecessary overtime hours and falsifying ofﬁcial
records on ﬁreﬁghter physical ﬁtness tests in 2009.

Our investigation found that PRA Deputy Superintendent Harold Compton was required to pass
the arduous duty pack test—which requires ﬁreﬁghters to carry a 45-pound backpack and walk 3
miles in less than 45 minutes—in order to serve and collect pay in 2009 as a collateral duty
wildland ﬁreﬁghter.

                                                15

In an interview with OIG investigators, PRA Supervisory Wildland Fire Operations Specialist
Michael Twiss knowingly provided false information when he said that he administered the test
to Compton in 2009 when in fact he had not. We further determined that, at the request of PRA
Fire Management Ofﬁcer Daigre Douville, Twiss entered false test results for Compton in the
Incident Qualiﬁcation Certiﬁcation System, an electronic system that shares ﬁreﬁghter training
certiﬁcation data with all Federal wildland ﬁreﬁghting agencies.

We also identiﬁed overtime hours claimed in 2009 by Twiss, Douville, and Compton in which
they received $29,000, $56,000, and $30,000, respectively, and found that they did not need to
work the overtime for which BIA paid them.

On November 19, 2013, a Federal Grand Jury in the U.S. District Court for the District of South
Dakota charged Twiss with one count of theft of Government property and one count of false
statements. A superseding indictment ﬁled on February 19, 2014, amended the false statement
charges ﬁled against Twiss. On December 17, 2013, a Federal Grand Jury charged Douville with
one count of theft of Government property, and a superseding indictment ﬁled on March 18,
2014, added one false statement count. Also on March 18, 2014, a Federal Grand Jury charged
Compton with one count of theft of Government property.

BIA Fireﬁghter Pleaded Guilty to Theft of Federal Funds
We investigated Christopher Menard, a Bureau of Indian Affairs (BIA) wildland ﬁreﬁghter at
Rosebud Agency in Rosebud, SD, for using BIA-owned ﬁreﬁghting vehicle credit cards twice in
December 2012 and once in January 2013. Menard purchased about $150 dollars in fuel for his
personal vehicle and provided false answers when questioned by his supervisor about those
transactions.

Menard was indicted on June 12, 2013, on one count of theft of Government property and one
count of making false statements. We arrested Menard on June 25, 2013, and he was released the
same day at the conclusion of his initial appearance. BIA issued Menard a written reprimand and
suspended him without pay indeﬁnitely, effective July 17, 2013. Menard pleaded guilty to the
theft charge, and his plea agreement was ﬁled in the U.S. District Court in Pierre, SD, on August
1, 2013. On November 1, 2013, Menard formally pleaded guilty to theft, and he was sentenced
on the same date to pay $150.08 in restitution, $350 in ﬁnes, and a $25 special assessment.
Menard resigned from his position with BIA on November 4, 2013, as a result of his conviction.

Mining Company Owner Pleaded Guilty to False Statements
We investigated Kimberly Onuma, the owner of Sunset Valley Mining Company after receiving
information from the Bureau of Land Management (BLM) that Onuma submitted fraudulent
waivers for the annual maintenance fee for mining claims ﬁled with the Montana State Ofﬁce.



                                               16

According to BLM, Onuma sent copies of Limited Power of Attorney documents listing herself
as the registered agent of various companies to the Montana State Ofﬁce. Connie Schaff, a BLM
Land Law Examiner, said BLM conﬁrmed that at least one of the Limited Power of Attorney
documents submitted by Onuma was a fraudulent document.

We substantiated the allegation that Onuma submitted at least one fraudulent Limited Power of
Attorney document to the Montana State Ofﬁce in connection with maintenance fee waiver
certiﬁcations. In addition, we found that Onuma submitted nine of these fraudulent documents to
the California State Ofﬁce. In August 2010, Onuma ﬁled waiver certiﬁcations totaling $6,720 to
the Montana State Ofﬁce and $6,860 to the California State Ofﬁce; BLM denied all waivers.

We found that in 2011, Onuma submitted additional fraudulent documents to both the Montana
and California State Ofﬁces and the Oregon State Ofﬁce in connection with mining claim
location notices. A Federal Grand Jury in Billings, MT, indicted Onuma on September 20, 2013,
on seven counts of false statements and one count of aggravated identity theft for
misrepresenting herself on the documents submitted. On January 21, 2014, Onuma pleaded
guilty to one count of false statements, and pursuant to the agreement with the U.S. Attorney’s
Ofﬁce, all other counts were dismissed.




Old mine headframe in Butte, MT




                                              17

Tribal CEO and Montana Contractor Indicted for Bribery and False 

Claims in Connection With Water Project
We investigated a Chippewa Cree Tribe ofﬁcial and a Montana contractor in a bribery scheme to
obtain subcontracts for the Rocky Boy’s/North Central Montana Rural Water System, a federally
funded construction project awarded to the Tribe by the Bureau of Reclamation. This
investigation resulted in two Federal Grand Jury indictments.

In the ﬁrst indictment, handed down on September 20, 2013, the two owners of Hunter Burns
Construction, LLC, Hunter Burns and James Eastlick Jr., were accused of paying $135,000 in
bribes to Tony Belcourt, the Chief Executive Ofﬁcer of the Chippewa Cree Construction
Corporation (CCCC), in connection with the award of four construction contracts exceeding
$700,000. Our investigation found that Hunter Burns Construction was created in June 2009, and
in that same month, Tony Belcourt, who also served as the CCCC contracting ofﬁcer, awarded a
$361,000 contract to Hunter Burns Construction. The indictment alleged that in August 2009,
Hunter Burns Construction paid Belcourt’s wife, Hailey Belcourt, $35,000 from proceeds of one
of the progress payments remitted against this contract. Our investigation also found that
between August and October 2009, Tony Belcourt awarded Hunter Burns Construction three
more contracts worth $352,000. The indictment further alleged that within days of receiving
another progress payment in November 2009, Hunter Burns Construction paid Hailey Belcourt
$100,000.

On October 18, 2013, a Federal Grand Jury returned a second indictment against Tony Belcourt,
Hunter Burns Construction, Hunter Burns, and James Eastlick Jr., alleging that they were
involved in a criminal conspiracy to submit false claims in connection with a $100,000 claim
related to the Rocky Boy’s/North Central Montana Regional Water System submitted by Hunter
Burns Construction in April 2010.

Montana Contractor Charged with Bribery Subsequently Charged with
Bankruptcy Fraud
We investigated Tammy Leischner, the owner of T Leischner Consulting; her husband, Mark
Leischner; and her father, James H. Eastlick Sr., for their roles in bribing Chippewa Cree Tribe
Contracting Ofﬁcer Tony Belcourt and determined that the three bribed Belcourt with $163,000.

In January 2010, T Leischner Consulting received a $495,000 shipping contract to ship steel pipe
from Denver, CO, to the Rocky Boy’s/North Central Montana Rural Water System job site in
Montana. We found that Tony Belcourt authorized two payments against the shipping contract
totaling $660,000, an overpayment of $165,000. We conﬁrmed that the Bureau of Reclamation
provided these funds to the Chippewa Cree Tribe through the American Recovery and
Reinvestment Act.


                                               18

On September 20, 2013, a Federal Grand Jury in Billings, MT, indicted Tammy Leischner and
James Eastlick, Sr., citing that in March 2010, they wire transferred $101,000 to Tony Belcourt’s
company, M T Waterworks. The indictment further alleged that in July 2010, Tammy Leischner,
aided and abetted by Mark Leischner, provided a $62,000 cashier’s check to Tony Belcourt’s
wife, Hailey.

On November 22, 2013, a Federal Grand Jury in Billings, MT, indicted Tammy and Mark
Leischner on one count of bankruptcy fraud and one count of false bankruptcy declaration
relating to their bankruptcy ﬁling of October 2012. The trial for this matter has been scheduled
for June 16, 2014, in Billings, MT.

Tribal CEO and Wife Charged with Bank Fraud, Money Laundering, and
Tax Fraud
A Federal Grand Jury in the U.S. District Court for the District of Montana returned two
indictments in March 2014 charging Tony Belcourt, the chief executive ofﬁcer and contracting
ofﬁcer of the Chippewa Cree Construction Corporation (CCCC) and his wife, Hailey, with bank
fraud, money laundering, and tax fraud in connection with a bribery scheme wherein they
received cash kickbacks from two contractors who Tony Belcourt had awarded subcontracts.

As we noted in a prior investigative case report, Tony Belcourt awarded subcontracts to Hunter
Burns Construction, LLC, and T Leischner Consulting in connection with the Rocky Boy’s/North
Central Montana Rural Water System, a federally funded construction project managed by the
Chippewa Cree Tribe pursuant to a Public Law 93-638 Indian Self Determination contract with
the Bureau of Reclamation.

In the ﬁrst indictment, on March 20, 2014, a Federal Grand Jury indicted the Belcourts on two
counts, including Federal income tax fraud and ﬁling false individual income tax returns for tax
years 2009 and 2010. For the 2009 tax return, the indictment stated that the Belcourts failed to
disclose $135,000 in direct payments that Hailey Belcourt received from Hunter Burns
Construction in 2009. The couple is also charged with failing to disclose $62,062 that Hailey
Belcourt received from T Leischner Consulting in tax year 2010.

In the second indictment, on March 20, 2014, the Grand Jury also indicted Tony and Hailey
Belcourt on three counts, including conspiracy, bank fraud, and money laundering in October
2009 when they concealed their sale of 182 steer calves pledged as security for a series of bank
loans provided to them in connection with their cattle-ranching operation. We determined that
checks remitted toward the purchase of these livestock were issued payable to Hailey Belcourt’s
father, Paul Hanson, in an effort to conceal the disposition of the livestock from the bank and
prevent the bank from applying those funds toward the outstanding loans.




                                                19

Tribal CEO and Montana Contractor Indicted for Bribery and Wire
Fraud
We investigated Shad Huston and his two companies, K&N Consulting and TMP Services; Tony
Belcourt, the chief executive ofﬁcer and contracting ofﬁcer for the Chippewa Cree Construction
Corporation (CCCC); and Tony Belcourt’s wife, Hailey.

Our investigation resulted in a Federal Grand Jury indictment alleging various counts of criminal
conspiracy to embezzle Federal and tribal funds from the Chippewa Cree Tribe. The indictment
included 14 criminal violations, including conspiracy to defraud the Federal Government, theft
of Federal and tribal funds, bribery, and wire fraud.

The indictment detailed a wire fraud and bribery scheme wherein Tony and Hailey Belcourt
personally received $322,500 either directly from Shad Huston or from his companies between
June and December 2011. During that same time frame, Tony Belcourt, in his capacity as chief
executive ofﬁcer and contracting ofﬁcer for CCCC and incident commander for the Chippewa
Cree Tribe, authorized contract payments to Shad Huston’s companies. We identiﬁed nine
companies owned or operated by Huston that contracted with either the Chippewa Cree Tribe,
CCCC, or both.

Guam Contractor Sentenced for Wire Fraud
We investigated Cynthia De Castro, an operations manager and responsible management
employee at CHB International, Inc. (CHB). DOI contracted with CHB to supply and install
emergency generators and shelters for ﬁve public schools in Guam.




Noncompliant generator supplied by De Castro

                                               20

De Castro held numerous contractor license classiﬁcations, including one covering the
installation of generators and shelters. De Castro was responsible for ensuring compliance with
the plans, speciﬁcations, building codes, and laws of Guam.

We determined that De Castro knew that the generators she supplied had to meet U.S.
Environmental Protection Agency (EPA) standards. We found that De Castro devised a scheme
to defraud the Government of Guam and DOI by charging and receiving money for generators
that she knew were manufactured in China and did not meet the EPA standards.

On March 17, 2014, the U.S. District Court of Guam sentenced De Castro to 5 years of probation
after she pleaded guilty to one count of wire fraud. She was also ordered to pay $70,738.33 in
restitution to the Government of Guam.

BIA Employee Suspended for Improperly Approving Contract
Modiﬁcations
We investigated a supervisory civil engineer in the Bureau of Indian Affairs’ (BIA) Division of
Transportation after receiving allegations that he had approved modiﬁcations to road construction
projects funded by the American Recovery and Reinvestment Act on the Wind River Indian
Reservation without proper approval.

In September 2009, BIA entered into 21 road construction projects funded by the Act with the
Joint Business Council of the Shoshone and Arapaho Tribes valued at almost $5.5 million. By
May 4, 2011, the civil engineer had approved 38 modiﬁcations to the projects; each of the 21
projects had at least one modiﬁcation. He said he did this to reprogram funds from one contract
to another to cover cost overruns, but he did not inform the awarding ofﬁcial of the cost overruns
or of the modiﬁcations. The civil engineer, however, did not have authority to approve
modiﬁcations to any Government contract. We also found that in August 2012, he submitted false
inspection reports to the awarding ofﬁcial for 11 of the 21 road construction projects funded by
the Act.

We referred our investigative ﬁndings to BIA for any actions deemed appropriate. In February
2014, BIA suspended the civil engineer for 14 days without pay for overstepping his authority,
falsifying or misrepresenting ofﬁcial Government records, and carelessly performing his ofﬁcial
duties.

Former Director of Tribe Forestry Sentenced for Embezzlement
OIG, with the FBI and the Del Norte County District Attorney’s Ofﬁce in Crescent City, CA,
jointly investigated Roland Raymond, the former director of the Yurok Tribe Forestry for
embezzling from the Tribe by submitting false invoices through Mad River Biologists, a
biological consulting ﬁrm contracted by the Tribe to conduct scientiﬁc assessments and
environmental projects in support of Endangered Species Act projects.
                                               21

The U.S. Attorney’s Ofﬁce for the Northern District of California charged Raymond on January
11, 2013, with conspiracy to commit embezzlement and theft from an Indian tribal organization.
On May 21, 2013, Raymond pleaded guilty to embezzling approximately $850,000 in funds that
the Bureau of Indian Affairs had awarded to the Yurok Tribe for scientiﬁc and environmental
contracts. Raymond admitted to conspiring with Mad River Biologists’ owner, Ronald LeValley,
to steal the Tribe’s funds by creating false invoices for work that was unnecessary or never
performed.

On January 13, 2014, the U.S. District Court for the Northern District of California sentenced
Raymond to 37 months in prison and 3 years of supervision following his release. Raymond was
also ordered to pay a $100 felony assessment, restitution in the amount of $752,000 to the Yurok
Tribe, and $100,000 to the Great American Insurance Group Company, which insured Yurok
Tribe’s ﬁdelity and crime policy and its dishonesty claim as a result of Raymond’s negligence.

On February 11, 2014, LeValley pleaded guilty to one count of conspiracy to commit
embezzlement and theft from Indian tribal organizations. LeValley admitted that he conspired
with Raymond by inﬂating invoices submitted to the Yurok Tribe for his employees’ bonuses and
billed the Tribe for biological ﬁeldwork that his company never actually performed.

Employee Sentenced for Double-Payment Scheme
We investigated Kaylene Red Wolf, a former payroll clerk for Lodge Grass Public Schools, after
receiving information alleging that Red Wolf paid herself double salary payments over a 6-month
period in 2012.

We determined that from June 20, 2012, to August 21, 2012, Red Wolf issued herself double
salary payments by advancing herself a portion of her normal paycheck between scheduled
paydays and then paying herself her full salary on the scheduled payday. She paid herself an
extra $3,848 through this scheme. Red Wolf admitted that she was not entitled to receive the full
80 hours of pay on the scheduled payday when she had already advanced herself pay for a
portion of those hours.

We also found that between November 4, 2011, and June 12, 2012, Red Wolf paid herself an
additional $6,154, which included pay for hours not worked and overpayments for holiday pay
that she was not entitled to receive.

On July 18, 2013, a Federal Grand Jury in the U.S. District Court for the District of Montana
indicted Red Wolf on counts of theft from a program receiving Federal funding and theft of
Government money. Red Wolf pleaded guilty on September 3, 2013, to theft from a program
receiving Federal funding. On January 8, 2014, Red Wolf was sentenced to 4 years of probation
and ordered to pay $10,002 in restitution.



                                               22

Former Tribal Chairman Sentenced for Theft

In January 2011, the FBI informed us of allegations concerning theft of tribal funds by members
of the Mashantucket Pequot Tribal Nation after discovering that numerous credit card purchases
appeared to have personally beneﬁted individual Tribe members. In conjunction with the FBI, we
investigated Michael Thomas, the former tribal chairman, and his brother, Steven Thomas, for
theft from an Indian tribal organization.

On January 4, 2013, the U.S. District Court for the District of Connecticut indicted Michael
Thomas on one count of theft from an Indian tribal organization and two counts of theft from an
Indian tribal government receiving Federal funds. On July 24, 2013, a Federal jury found
Michael Thomas guilty of all three counts. On November 19, 2013, Michael Thomas was
sentenced to serve 18 months in prison and 36 months of probation and ordered to pay
$108,342.02 in restitution and a special assessment of $300.

On October 3, 2013, Steven Thomas pleaded guilty to one count of theft from an Indian tribal
government receiving Federal funds. Steven Thomas was sentenced on February 26, 2014, to 1
day in prison, which he had already served, and 2 years of supervised release. He was ordered to
pay restitution in the amount of $177,604 and complete 200 hours of community service.

USBR Employee Pleaded Guilty to Receipt of Child Pornography
We investigated Bureau of Reclamation (USBR) employee Timothy Casey in response to a
report that a DOI computer assigned to Casey had visited several sites suspected of hosting child
pornography. Our investigation identiﬁed approximately 2,800 child pornography images and
videos located in the network trafﬁc and digital evidence associated with Casey’s Government-
issued computer. We provided the images to the National Center for Missing and Exploited
Children, which identiﬁed more than 80 known victims of sexual assault.

Casey admitted that he had used his Government computer to search for and view child
pornography, which he knew was illegal. He provided a written statement and immediately
resigned from USBR.

We referred this case to the U.S. Attorney’s Ofﬁce for the Eastern District of Washington for
prosecution, which indicted Casey on charges of receipt and possession of child pornography on
September 4, 2013. On November 7, 2013, Casey pleaded guilty to count one of the indictment
for receipt of child pornography. On February 10, 2014, he was sentenced to 5 years in prison
followed by 20 years of supervised release. He is also required to register as a sex offender.




                                               23

Kalaupapa National Historic Park in Hawaii

NPS Volunteer Pleaded Guilty to Possession of Child Pornography
In a joint investigation with the National Park Service’s (NPS) Investigative Services Branch
and the FBI, we investigated John Freitas for possessing child pornography. Freitas was an NPS
volunteer through the Student Conservation Association at Kalaupapa National Historic Park on
the island of Molokai, HI.

Using computer forensics evidence, we determined that Freitas had downloaded child
pornography to his personal and Government-issued computers. On January 16, 2014, Freitas
pleaded guilty to an indictment charging a single count of possession of child pornography.

BIE Employee Terminated After Stealing From Students
We investigated Bureau of Indian Education (BIE) employee Marcellina Tohonnie for
embezzling account funds from Children Incorporated, an international nonproﬁt organization
assisting needy children in the United States and abroad. As the school’s former Children
Incorporated program coordinator, Tohonnie was entrusted with accepting and using donations to
purchase basic necessities, such as clothing and school supplies, for the children enrolled in the
program attending the Kaibeto Boarding School in Arizona.

Our investigation determined that Tohonnie stole $23,226 from accounts for 47 Native
American students attending the school and used the funds to purchase clothing, salon visits,
gifts, car repairs, and travel to Las Vegas, NV. On April 23, 2013, the U.S. District Court for
the District of Arizona convicted Tohonnie of one count of embezzlement from an Indian tribal
organization and sentenced her to 5 years of supervised probation and ordered her to repay
$23,226 in restitution to Children Incorporated. On January 27, 2014, BIE terminated Tohonnie’s
employment.


                                               24

Former Professor Sentenced for Defrauding Federal Government
We initiated a joint investigation with the Defense Criminal Investigative Service, an ofﬁce
within the U.S. Department of Defense Ofﬁce of Inspector General, after receiving a complaint
from the Defense Contract Audit Agency (DCAA) regarding a National Business Center contract
awarded to the International Foundation for Science, Health, and the Environment. DCAA
informed us of several allegations of false claims submitted by the foundation and its president,
Dr. Alfred Y. Wong, a former University of California - Los Angeles (UCLA) physics professor.

The investigation substantiated that Wong submitted several false claims to the Government
and UCLA. We also found that Wong defrauded the Federal Government of approximately
$1.7 million on several Federal contracts between 2004 and 2008 by submitting false invoices,
directing employees to work on his personal property, falsifying information provided to DCAA,
defrauding UCLA, fraudulently billing the Government for work that was never performed,
converting Government property to his own, and billing the Government for work unrelated to
the contracts’ speciﬁcations.

We referred this case to the United States Attorney’s Ofﬁce for the Central District of California
for criminal and civil prosecution. On October 10, 2013, the U.S. District Court for the Central
District of California sentenced Wong to 5 days in prison, 6 months of home conﬁnement with
electronic monitoring, 18 months of supervised probation, 300 hours of community service, a
$150,000 ﬁne, $136,000 in restitution to UCLA, and $1.4 million in civil fraud penalties and
restitution to the Federal Government. Based on the conviction, Wong and the foundation were
suspended and debarred from conducting business with the Government for a period of 5 years.




                                                25
 Back to Top
Appendices

                                                                                                                                    Appendix 1
Investigations Statistical Highlights
October 1, 2013 - March 31, 2014

Investigative Activities
Cases Closed.................................................................................................................................221

Cases Opened...............................................................................................................................240

Complaints Received From All Sources.......................................................................................296


Criminal Prosecution Activities
Indictments/Informations...............................................................................................................25

Convictions....................................................................................................................................17

Sentencings....................................................................................................................................17

   Jail..............................................................................................................................547 months

   Community Service.......................................................................................................403 hours

   Probation....................................................................................................................708 months

   Criminal Penalties........................................................................................................$7,866,024

Criminal Matters Referred for Prosecution....................................................................................16

Criminal Matters Declined This Period............................................................................................9


Civil Investigative Activities
Civil Referrals...................................................................................................................................1

Civil Declinations..............................................................................................................................5

Civil Settlements..........................................................................................................1: $1,400,000


Administrative Investigative Activities
Personnel Suspensions.......................................................................................................5: 62 days

Reprimands/Counseling....................................................................................................................8

Removals..........................................................................................................................................3

Bill for Collection Issued..................................................................................................1: $866.22

Resignations/Retirements.................................................................................................................6

General Policy Actions....................................................................................................................10

Contractor Suspensions....................................................................................................................4

Contractor Debarments...................................................................................................................19





                                                                       27

                                                                                                                                  Appendix 1
Statistical Highlights
October 1, 2013 - March 31, 2014

Audit, Inspection, and Evaluation Activities
Reports Issued.................................................................................................................................26

  Performance Audits, Financial Audits, Evaluations, Inspections, and Veriﬁcations.................17

  Contract and Grant Audits...........................................................................................................8

  Single Audit Quality Control Reviews........................................................................................1


Audit, Inspection, and Evaluation Impacts
Total Monetary Impacts..................................................................................................$21,598,550

   Questioned Costs (includes unsupported costs)........................................................$21,598,550

   Recommendations That Funds Be Put to Better Use................................................................$0


    Audit, Inspection, and Evaluation Recommendations Made..................................................103

    Audit, Inspection, and Evaluation Recommendations Closed...................................................46





                                                                      28

                                                                                       Appendix 2
Reports Issued During the 6-Month Reporting Period
This listing includes all audit, inspection, and evaluation reports issued during the 6-month
period that ended March 31, 2014. It provides report number, title, issue date, and monetary
amounts identiﬁed in each report (* Funds To Be Put to Better Use, ** Questioned Costs, and
*** Unsupported Costs).

Audits, Inspections, and Evaluations

       Bureau of Land Management

              C-IN-BLM-0002-2012
              Bureau of Land Management’s Mineral Materials Program (03/31/2014)

       Bureau of Reclamation

              ISD-IS-BOR-0004-2013
              IT Security of the Glen Canyon Dam Supervisory Control and Data Acquisition
              System (03/26/2014)

       Indian Affairs

              ER-IS-BIA-0011-2013
              Bureau of Indian Affairs Real Property Leases (01/30/2014)

              CR-IS-BIA-0001-2014
              Records Management at Selected Bureau of Indian Affairs’ Agency Ofﬁces
              (01/31/2014)

              ER-MA-BIA-0001-2014
              Issues Identiﬁed During our Audit of Veteran Solutions, Inc., Under Contract
              No. SBK00080062 (02/26/2014)

       Insular Areas

              ER-EV-VIS-0004-2014
              Veriﬁcation of Watch Quota Data for Calendar Year 2013 Submitted by Belair
              Quartz, Inc., Located in the U.S. Virgin Islands (03/14/2014)

                                               29

                                                                               Appendix 2
Multi-Ofﬁce Assignments

     ER-SP-MOI-0012-2013
     Inspector General’s Statement Summarizing the Major Management and
     Performance Challenges Facing the U.S. Department of the Interior (12/03/2013)

     X-IN-MOA-0003-2013
     Independent Auditors’ Report on the U.S. Department of the Interior Financial
     Statements for Fiscal Years 2013 and 2012 (12/09/2013)

     X-IN-MOA-0005-2013
     Independent Auditors’ Report on the U.S. Department of the Interior
     Special-Purpose Financial Statements for Fiscal Years 2013 and 2012
     (12/09/2013)

     CR-EV-MOA-0004-2013
     Closeout Memo – Evaluation of the Department of the Interior’s Class II
     Underground Injection Well Activities (12/19/2013)

     ISD-IN-MOA-0001-2013
     Independent Auditors’ Performance Audit Report on the U.S. Department of the
     Interior Federal Information Security Management Act for Fiscal Year 2013
     (02/26/2014)

     X-SP-MOI-0009-2014
     Progress Made by the U.S. Department of the Interior in Implementing
     Government Charge Card Recommendations (03/21/2014)

     CR-EV-MOA-0006-2012
     U.S. Department of the Interior’s Underground Injection Control Activities
     (03/31/2014)

Ofﬁce of the Special Trustee for American Indians

     X-IN-OST-0007-2013
     Independent Auditors’ Reports on the Tribal and Other Trust Funds and Individual
     Indian Monies Trust Funds Financial Statements for FY2013 and FY2012
     (11/18/2013)


                                     30

                                                                                  Appendix 2
     Ofﬁce of Surface Mining Reclamation and Enforcement

          ER-IS-OSM-0007-2013
          United Mine Workers of America Health and Retirement Funds (Revised)
          (12/13/2013)

     Ofﬁce of the Secretary

          IU-IS-SOL-0004-2013
          Thin Client Computer Inventory Veriﬁcation at the Ofﬁce of the Solicitor in the
          Main Interior Building (03/19/2014)

     U.S. Fish and Wildlife Service

          X-IN-FWS-0004-2013
          Independent Auditors’ Biennial Report on the Audit of Expenditures and
          Obligations Used by the Secretary of the Interior in the Administration of the
          Wildlife and Sport Fish Restoration Programs Improvement Act of 2000 for Fiscal
          Years 2011 Through 2012 (02/24/2014)

Contract and Grant Audits

     Bureau of Reclamation

          C-CX-BOR-0010-2013
          Bureau of Reclamation Funding Agreements with Chippewa Cree Construction
          Corporation: R10AV60025 and 06NA602127 (12/16/2013)
          **$1,174,801 ***$11,739,744

     National Park Service

          ZZ-CX-NPS-0004-2013
          Audit of Interim Costs Claimed by Prizim, Inc., Under Contract No. P09PA60840
          With the National Park Service (11/08/2013)
          **$96,741 ***$3,553,606




                                          31

                                                                            Appendix 2
U.S. Fish and Wildlife Service

     R-GR-FWS-0010-2013
     U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
     Grants Awarded to the State of Wyoming, Game and Fish Department,
     From July 1, 2010, Through June 30, 2012 (10/29/2013)

     R-GR-FWS-0008-2013
     U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program 

     Grants Awarded to the State of Arkansas, Game and Fish Commission, 

     From July 1, 2010, Through June 30, 2012 (11/06/2013) 

     **$763,535 ***$33,949


     R-GR-FWS-0011-2013
     U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
     Grants Awarded to the State of Montana Department of Fish, Wildlife and Parks
     From July 1, 2010, Through June 30, 2012 (02/24/2014)
     ***$230,660

     R-GR-FWS-0003-2014
     U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
     Grants Awarded to the State of North Carolina, Wildlife Resources Commission,
     From July 1, 2011, Through June 30, 2013 (03/27/2014)

     R-GR-FWS-0013-2013
     U.S. Fish and Wildlife Service Sport Fish Restoration Program Grants Awarded to 

     the State of North Carolina, Division of Marine Fisheries, 

     From July 1, 2010, Through June 30, 2012 (03/27/2014)


U.S. Geological Survey

     WR-CX-GSV-0023-2013
     Interim Costs Recorded by the Aerospace Corporation, Under Contract
     No. G09PC00016 with the U.S. Geological Survey (12/27/2013)
     **$91,372 ***$3,914,142




                                    32

                                                                              Appendix 2
Single Audit Quality Control Review

     Multi-Ofﬁce Assignment

          B-QC-MOA-0006-2013
          Quality Control Review of Piltz, Williams, LaRosa & Company’s Single Audit of
          The Institute for Marine Mammal Studies, Inc., for the Fiscal Year Ending
          July 31, 2011 (03/31/2014)




                                        33

                                                                                          Appendix 3
Monetary Resolution Activities
Table 1: Inspector General Reports With Questioned Costs*

                                 Number of Reports         Questioned Costs*    Unsupported Costs
 A. For which no                        4                          $2,809,815           $1,350,382
 management decision
 has been made by the
 commencement of
 the reporting period.
 B. Which were issued                        5                    $21,598,550          $19,472,101
 during the reporting
 period.
 Total (A+B)                                 9                    $24,408,365          $20,822,483
 C. For which a                              3                     $2,857,419            $969,769
 management decision
 was made during the
 reporting period.

 (i) Dollar value of                                               $1,205,619              $33,949
 costs disallowed.

 (ii) Dollar value of                                              $1,651,800             $935,820
 costs allowed.

 D. For which no                             6                    $21,550,946          $19,852,714
 management decision
 had been made by the
 end of the reporting
 period.


*Note: Does not include non-Federal funds.




                                                     34

                                                                                Appendix 3
Monetary Resolution Activities
Table II: Inspector General Reports With Recommendations
         That Funds Be Put to Better Use*

                                             Number of Reports   Dollar Value
 A. For which no management                         1                            $8,504
 decision has been made by
 the commencement of the
 reporting period.
 B.Which were issued during                         0                                 $0
 the reporting period.
 Total (A+B)                                        1                            $8,504
 C. For which a management                          0                                $0
 decision was made during the
 reporting period.

 (i) Dollar value of                                                                  $0
 recommendations that were
 agreed to by management.

 (ii) Dollar value of                                                                 $0
 recommendations that were
 not agreed to by management.
 D. For which no                                    1                            $8,504
 management decision had
 been made by the end of the
 reporting period.


*Note: Does not include non-Federal funds.




                                                    35

                                                                                       Appendix 4
Summary of Reports More Than 6 Months Old
Pending Management Decision
This listing includes a summary of audit, inspection, and evaluation reports that were more than
6 months old on March 31, 2014, and still pending a management decision. It provides report
number, title, issue date, and number of unresolved recommendations.

Audits, Inspections, and Evaluations

       Bureau of Reclamation

               ISD-AT-BOR-0002-2012
               IT Security of the Hoover Dam Supervisory Control and Data Acquisition System
               (03/29/2013)
               2 Recommendations

       Indian Affairs

               CR-EV-BIA-0001-2011
               Oil and Gas Leasing in Indian Country: An Opportunity for Economic
               Development (09/24/2012)
               1 Recommendation

               WR-EV-BIA-0001-2012
               Management of Social Services in BIA: Opportunity for Action (03/18/2013)
               1 Recommendation

       U.S. Fish and Wildlife Service

               WR-EV-FWS-0003-2011
               U.S. Fish and Wildlife Service Conservation Easement Monitoring and
               Enforcement (01/09/2012)
               2 Recommendations




                                               36

                                                                                 Appendix 4
Contract and Grant Audits

     Bureau of Ocean Energy Management

          K-CX-BOEM-0001-2013
          Interim Cost Audit Claimed by Sonoma Technology, Inc., Under Contract
          No. M08PC20057 With the Bureau of Safety and Environmental Enforcement
          (05/14/2013)
          2 Recommendations; $238,915 unresolved

     U.S. Fish and Wildlife Service

          R-GR-FWS-0006-2013
          U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
          Grants Awarded to the District of Columbia, Department of the Environment,
          From October 1, 2009, Through September 30, 2011 (07/30/2013)
          4 Recommendations; $6,000 unresolved

          R-GR-FWS-0008-2004
          U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the 

          State of Idaho, Department of Fish and Game, 

          From July 1, 2001, Through June 30, 2003 (09/30/2005)

          15 Recommendations; $519,469 unresolved





                                         37

                                                                                    Appendix 5
Summary of Reports More Than 6 Months Old
Pending Corrective Action
This is a listing of audit, inspection, and evaluation reports more than 6 months old with
management decisions for which corrective action has not been completed. It provides report
number, title, issue date, and the number of recommendations without ﬁnal corrective action.
These audits, inspections, and evaluations continue to be monitored by the Branch Chief for
Internal Control and Audit Follow-up, Assistant Secretary for Policy, Management and Budget,
for completion of corrective action.

       Bureau of Land Management

              CR-EV-BLM-0001-2009
              Evaluation Report of the Bureau of Land Management’s Oil and Gas Inspection
              and Enforcement Program (12/02/2010)
              3 Recommendations

              C-IS-BLM-0018-2010
              Bureau of Land Management Wild Horse and Burro Program (12/13/2010)
              3 Recommendations

              CR-EV-BLM-0004-2010
              Bureau of Land Management’s Renewable Energy Program: A Critical Point in
              Renewable Energy Development (06/12/2012)
              2 Recommendations

              ER-IS-BLM-0003-2012
              Bureau of Land Management: Meadowood Equestrian Facility (09/27/2012)
              2 Recommendations

              CR-EV-BLM-0004-2012
              Bureau of Land Management’s Geothermal Resources Management (03/07/2013)
              4 Recommendations

              CR-EV-BLM-0001-2012
              Coal Management Program, U.S. Department of the Interior (06/11/2013)
              13 Recommendations



                                             38

                                                                           Appendix 5
     WR-CA-BLM-0013-2013
     Cooperative Agreement No. JSA071001/L08AC13913 between the Utah
     Correctional Industries and the Bureau of Land Management (09/27/2013)
     1 Recommendation

Bureau of Ocean Energy Management

     CR-EV-MMS-0015-2010
     A New Horizon: Looking to the Future of the Bureau of Ocean Energy
     Management, Regulation and Enforcement (12/07/2010)
     15 Recommendations

     WR-IN-BOEM-0007-2013
     GovTrip Use and Monitoring by the U.S. Department of the Interior – Bureau of
     Ocean Energy Management (09/09/2013)
     5 Recommendations

     CR-EV-BOEM-0001-2013
     U.S. Department of the Interior’s Offshore Renewable Energy Program
     (09/25/2013)
     3 Recommendations

Bureau of Reclamation

     C-IS-BOR-0006-2010
     Museum Collections: Preservation and Protection Issues with Collections
     Maintained by the Bureau of Reclamation (01/29/2010)
     1 Recommendation

     WR-EV-BOR-0003-2012
     Central Valley Project, California: Repayment Status and Payoff (03/26/2013)
     1 Recommendation

     ISD-AT-BOR-0002-2012
     IT Security of the Hoover Dam Supervisory Control and Data Acquisition System
     (03/29/2013)
     3 Recommendations




                                    39

                                                                             Appendix 5
     WR-IN-BOR-0004-2013
     GovTrip Use and Monitoring by the U.S. Department of the Interior – Bureau of
     Reclamation (09/09/2013)
     9 Recommendations

Indian Affairs

     WR-EV-BIA-0002-2010
     Coordination of Efforts to Address Indian Land Fractionation (01/04/2011)
     6 Recommendations

     ER-IS-BIA-0010-2011
     U.S. Department of the Interior Program Startup Inspection: 

     Bureau of Indian Affairs Youth Initiative Program (11/10/2011)

     1 Recommendation


     WR-EV-BIA-0009-2012
     Indian Land Consolidation: Probate and Estate Planning Activities (08/16/2012)
     2 Recommendations

     CR-IN-BIA-0001-2011
     Oil and Gas Leasing in Indian Country: An Opportunity for Economic
     Development (09/24/2012)
     1 Recommendation

     WR-EV-BIA-0001-2012
     Management of Social Services in BIA: Opportunity for Action (03/18/2013)
     6 Recommendations

     ER-CX-BIA-0005-2013
     Interim Cost Audit Claimed by Veteran Solutions, Inc., Under Contract
     No. SBK00080062 With the Bureau of Indian Affairs (09/12/2013)
     1 Recommendation

Multi-Ofﬁce Assignments

     2002-I-0045
     Recreational Fee Demonstration Program - National Park Service and Bureau of
     Land Management (08/19/2002)
     1 Recommendation
                                   40

                                                                      Appendix 5
C-IN-MOA-0049-2004
Department of the Interior Concessions Management (06/13/2005)
1 Recommendation

C-IN-MOA-0007-2005
U.S. Department of the Interior Radio Communications Program (01/30/2007)
5 Recommendations

W-IN-MOA-0086-2004
Proper Use of Cooperative Agreements Could Improve Interior’s Initiatives for
Collaborative Partnerships (01/31/2007)
1 Recommendation

C-IN-MOA-0004-2007
Abandoned Mine Lands in the Department of the Interior (07/24/2008)
1 Recommendation

WR-EV-MOI-0008-2008
Employee Relocation, U.S. Department of the Interior (09/21/2009)
3 Recommendations

C-IN-MOA-0010-2008
Department of the Interior Museum Collections: Accountability and Preservation
(12/16/2009)
7 Recommendations

CR-IS-MOA-0004-2009
BLM and MMS Beneﬁcial Use Deductions (03/08/2010)
2 Recommendations

C-IN-MOA-0001-2009
Department of the Interior’s Management of Land Boundaries (07/16/2010)
1 Recommendation

ER-EV-MOA-0012-2009
Wildland Urban Interface: Community Assistance (07/30/2010)
3 Recommendations




                               41

                                                                       Appendix 5
C-EV-MOA-0010-2010
Portable Nuclear Gauges (09/28/2011)
1 Recommendation

WR-EV-MOA-0004-2010
U.S. Department of the Interior’s Video Teleconferencing Usage (12/20/2011)
3 Recommendations

C-IN-MOA-0013-2010
Management of Rights-of-Way in the U.S. Department of the Interior
(09/27/2012)
16 Recommendations

C-EV-MOA-0009-2011
Controls over Check Writing (10/31/2012)
2 Recommendations

C-IN-MOA-0010-2011
Bureau of Land Management’s Helium Program (11/09/2012)
2 Recommendations

ISD-EV-MOA-0001-2012
Independent Auditors’ Performance Audit Report on the U.S. Department of the
Interior Federal Information Security Management Act for Fiscal Year 2012
(11/13/2012)
13 Recommendations

X-IN-MOA-0002-2012
Independent Auditors’ Report on the U.S. Department of the Interior Financial
Statements for Fiscal Years 2012 and 2011 (11/15/2012)
6 Recommendations

WR-EV-MOA-0015-2011
Bureau of Land Management, National Park Service, and Ofﬁce of Surface
Mining Reclamation and Enforcement’s Safety of Dams: Emergency
Preparedness (12/27/2012)
5 Recommendations




                               42

                                                                             Appendix 5
     ER-IN-MOA-0013-2011
     Management of the Coastal Impact Assistance Program, State of Mississippi
     (06/27/2013)
     14 Recommendations

     ER-IN-MOA-0015-2011
     U.S. Department of the Interior’s Landscape Conservation Cooperatives
     (06/27/2013)
     12 Recommendations

     WR-IN-MOA-0006-2011
     GovTrip Use and Monitoring by the U.S. Department of the Interior (09/09/2013)
     13 Recommendations

     WR-EV-MOA-0002-2013
     Bureau of Indian Affairs and U.S. Fish and Wildlife Service Safety of Dams:
     Emergency Preparedness (09/24/2013)
     12 Recommendations

National Park Service

     C-IN-NPS-0013-2004
     The National Park Service’s Recording of Facility Maintenance Expenditures
     (01/26/2005)
     2 Recommendations

     P-IN-NPS-0074-2004
     Hawaii Volcanoes National Park: Improved Operations Should Enhance
     Stewardship and Visitor Experience (03/31/2006)
     3 Recommendations

     WR-IS-NPS-0009-2013
     NPS Contractor Oversight of Visitor Tent Cabins at Yosemite National Park
     Involved in Hantavirus Outbreak (05/15/2013)
     2 Recommendations

     WR-IN-NPS-0008-2013
     GovTrip Use and Monitoring by the U.S. Department of the Interior – National
     Park Service (09/11/2013)
     8 Recommendations
                                    43
                                                                            Appendix 5
Ofﬁce of Natural Resources Revenue

     CR-MA-ONRR-0003-2012
     Civil Penalty Sharing Provisions of 30 U.S.C. § 1736 for Federal Oil and Gas
     Leases (05/01/2012)
     1 Recommendation

Ofﬁce of Surface Mining Reclamation and Enforcement

     ER-IS-OSM-0011-2011
     U.S. Department of the Interior Program Startup Inspection: Ofﬁce of Surface
     Mining Appalachian Regional Reforestation Initiative (11/10/2011)
     1 Recommendation

     WR-IN-OSM-0014-2012
     GovTrip Use and Monitoring by the U.S. Department of the Interior – Ofﬁce of
     Surface Mining Reclamation and Enforcement (05/21/2013)
     1 Recommendation

     IU-IS-OSM-0002-2013
     Enforcement of Approximate Original Contour in Oklahoma by the Ofﬁce of
     Surface Mining Reclamation and Enforcement (08/05/2013)
     3 Recommendations

U.S. Fish and Wildlife Service

     C-IN-FWS-0009-2007
     Fish and Wildlife Service: Jackson National Fish Hatchery In Need of Immediate
     Action (05/08/2007)
     1 Recommendation

     C-IS-FWS-0007-2010
     Museum Collections: Preservation and Protection Issues with Collections
     Maintained by the Fish and Wildlife Service (01/29/2010)
     2 Recommendations

     NM-EV-FWS-0001-2010
     The National Bison Range (03/30/2011)

     1 Recommendation


                                    44

                                                                           Appendix 5
     WR-EV-FWS-0003-2011
     U.S. Fish and Wildlife Service Conservation Easement Monitoring and
     Enforcement (01/09/2012)
     2 Recommendations

U.S. Geological Survey

     ER-CX-GSV-0002-2013
     Interim Cost Audit Claimed by ASRC Research and Technology Under Contract
     No. 08PC91508 With the U.S. Geological Survey (03/22/2013)
     1 Recommendation




                                   45

                                                                                       Appendix 6
OIG Peer Reviews
Audits, Inspections, and Evaluations
The Amtrak OIG is currently conducting a peer review of our system of quality control for the
year ending September 30, 2013. Amtrak OIG has not yet issued its ﬁnal report, but it indicated
in its draft report that we have received a rating of pass. Amtrak OIG did, however, make several
preliminary recommendations to improve our system of quality control; we are considering these
recommendations.

Investigations
The U.S. Department of the Treasury OIG conducted a peer review of our investigative function
for the period ending November 19, 2010. The peer review found that the system of internal
safeguards and management procedures for our investigative function complied with the quality
standards established by the Council of the Inspectors General on Integrity and Efﬁciency
and the “Attorney General’s Guidelines for Ofﬁce of Inspectors General with Statutory Law
Enforcement Authority.”




                                               46
 Back to Top
Cross-References to the Inspector General Act
                                                                                       Page
Section 4(a)(2)            Review of Legislation and Regulations                       N/A*

Section 5(a)(1)            Signiﬁcant Problems, Abuses, and Deﬁciencies                2-25

Section 5(a)(2)            Recommendations for Corrective Action With Respect          2-25
                           to Signiﬁcant Problems, Abuses, and Deﬁciencies

Section 5(a)(3)            Signiﬁcant Recommendations From Agency’s Previous           38-45
                           Reports on Which Corrective Action Has Not Been Completed

Section 5(a)(4)            Matters Referred to Prosecutive Authorities and             27
                           Resulting Convictions

Section 5(a)(5)            Matters Reported to the Head of the Agency                  N/A

Section 5(a)(6)            Audit Reports Issued During the Reporting Period            29-33

Section 5(a)(7)            Summary of Signiﬁcant Reports                               2-25

Section 5(a)(8)            Statistical Table: Questioned Costs                         34

Section 5(a)(9)            Statistical Table: Recommendations That Funds Be Put        35
                           to Better Use

Section 5(a)(10)           Summary of Audit Reports Issued Before the Commencement     36-37
                           of the Reporting Period for Which No Management Decision
                           Has Been Made

Section 5(a)(11)           Signiﬁcant Revised Management Decisions Made                N/A
                           During the Reporting Period

Section 5(a)(12)           Signiﬁcant Management Decisions With Which                  9-11
                           the Inspector General is in Disagreement

Section 5(a)(13)           Information Described Under Section 804(b) of the Federal   N/A
                           Financial Management Improvement Act of 1996

*N/A: Not applicable to this reporting period.
                                                    47

Cross-References to the Inspector General Act

                                                                                  Page
Section 14(A)              Results of Peer Reviews Conducted by Another Ofﬁce     N/A*
                           of Inspector General During the Reporting Period

Section 14(B)              Most Recent Peer Review Conducted by Another Ofﬁce     46
                           of Inspector General

Section 15                 Outstanding Recommendations From Any Peer Review       N/A
                           Conducted by Another Ofﬁce of Inspector General

Section 16                 Peer Reviews Completed of Another Ofﬁce of Inspector   N/A
                           General During the Reporting Period or Previous
                           Recommendations That Have Not Been Fully Implemented




*N/A: Not applicable to this reporting period.
                                                 48
 Back to Top
U.S. Department of the Interior 

  Ofﬁce of Inspector General

       1849 C St., NW.

      Mail Stop 4428, MIB

     Washington, DC 20240


  www.doi.gov/oig/index.cfm

     Phone: 202-208-4618

      Fax: 202-208-6062





             Back to Top
